CERTIFICATE OF COMPLIANCE
Case No. 20-843
Caption: New Yorli State Rifle & Pistol
Association, Inc., et al. v. Kevin P. Bruen,
in His Official Capacity as Superintendent
of New Yorli State Police, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 6,769 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 21

Sworn to before me on
September 21, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

